                                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                                     Office of Inspector General
                                                                     Washington. D.C. 20230




April, I 5, 2014

MEMORANDUM FOR: 	 Ellen Herbst

                              :~~e:i:~:::·J=d ~"f!L~ for Administration
FROM:
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                    Nonfederal Audit Results for the 6-Month Period Ending
                              December 3 I, 2013

This memorandum provides an analysis of nonfederal audit reports, including a summary of
findings that OIG reviewed during the 6-month period ending December 31, 2013, for entities
receiving federal awards subject to audit requirements. Section I discusses audit reports
submitted for states, local governments, tribes, colleges and universities, and nonprofit
organizations. Section II discusses reports submitted for commercial organizations.

I. Analysis of Audits Submitted for States, Local Governments, Tribes, Colleges
and Universities, and Nonprofit Organizations

Nonfederal entities (e.g., states, local governments, tribes, colleges and universities, and
nonprofit organizations) that expend $500,000 or more in federal awards in a year are required
by the Single Audit Act of 1984 and Amendments of 1996 to have an annual audit of their
federal awards conducted in accordance with OMB Circular A-133, "Audits of States, Local
Governments, and Non-Profit Organizations."

The purpose of the Single Audit Act is to establish standards for obtaining consistency and
uniformity among federal agencies in conducting audits of expenditures of federal awards by
nonfederal entities. The audit required by the Single Audit Act includes a review of the entities'
financial statements and Schedule of Expenditures of Federal Awards (SEFA). The auditor
determines whether the statements are presented fairly; tests internal controls; and determines
compliance with laws, regulations, and the provisions of the contracts or grant agreements that
may have a direct and material effect on each major program.
All auditees are required to electronically submit to the Federal Audit Clearinghouse a data
collection form (a summary of audit results) and a copy of the reporting package, which
consists of:
    	 financial statements,
    	 a SEFA,
    	 a summary schedule of prior audit findings,
    	 auditor’s reports of compliance and opinion on the financial statements, and
    	 a corrective action plan.
The responsibilities of federal awarding bureaus under the Single Audit Act include:
    	 identifying federal awards,
    	 advising recipients of requirements imposed on them by federal laws, regulations, and
       the provisions of contracts or grant agreements,
    	 ensuring audit completion and report receipt,
    	 providing technical advice to auditees and auditors, and
    	 issuing a management decision on audit findings within 6 months after receipt of the
       audit report and ensuring that the recipient takes appropriate and timely corrective
       action.1
OIG is responsible for reviewing the submitted audit report and auditee responses and
determining whether the recommendations can be implemented. In instances with
nonresolution findings,2 we notify the responsible bureau of the finding(s) and emphasize the
importance of resolving them before the next audit; however, a formal response in accordance
with Department Administrative Order (DAO) 213-5, “Audit Resolutions and Follow-Up,” is
not required.

In instances with material findings,3 the audit reports are resolved using the procedures of DAO
213-5. OIG notifies the auditee and the responsible bureau of the finding(s). We work with the
bureaus to ensure that they prepare written determinations, specifying concurrence or
nonconcurrence with each recommendation. The written determination presents a specific plan
of corrective action with appropriate target dates for implementing all accepted
recommendations. OIG conducts this review on an ongoing basis and presents summary
analyses semiannually.

OIG reviewed each report for compliance with the reporting requirements of OMB Circular
A-133 (but did not review the quality of the underlying audits) and analyzed the results. Tables
1 and 2 summarize our observations. As shown in table 1, a total of 72 percent of all reports
reviewed contained at least one finding.

1
  See Office of Management and Budget (OMB) Circular A-133, § __.400 (c).

2
  Nonresolution findings are those with questioned costs less than $10,000 or administrative findings.

3
  Material findings are those with questioned costs greater than or equal to $10,000 and/or significant nonfinancial 

findings.



                                                          2
                          Table 1. Overview of OIG-Reviewed Single Audit

                                    Reports, July–December 2013


                                Reports             Reports with          Percentage of Reports
            Bureau             Reviewed               Findings                with Findings

      EDA                         31                      24                         77

      NOAA                        18                       14                        78
      NTIA                        13                        7                        54

      NIST                         5                        5                       100
      MBDA                         1                        0                          0

      Multiple bureausa           21                       14                         67
      Total                       89                      64                         72
  a
   Multiple indicates that the single audit report included programs from more than one Departmental

  bureau.



Table 2 provides a summary analysis of reports reviewed, including the number of reports with
findings (material, nonresolution, and cross-cutting). It shows that:

         EDA, NOAA, NTIA, and NIST administered grants whose grantees had material
          findings;
         Each of four Department bureaus had between 3 and 37 nonresolution findings (that is,
          less-significant procedural or internal control findings, usually affecting a specific
          program, whose resolution OIG does not monitor);
      	 Each of six Department bureaus had between 1 and 28 cross-cutting findings (that is,
         less-significant procedural or internal control findings, usually affecting more than one
         Departmental program, whose resolution OIG does not monitor);
      	 A total of approximately $3.2 million of questioned costs were identified among all
         Departmental programs.




                                                      3
            Table 2. Types of Findings and Questioned Costs in OIG-Reviewed

                       Single Audit Reports, July–December 2013


                                  Type of Finding                                         Questioned
                                     Non-                                  Total            Costs
        Bureau      Material       resolution       Cross-cutting         Findings         (dollars)
    EDA                  7               37                12                 56                401,611

    NOAA                 2               9                28                  39                  25,192

    NTIA                 5               19                14                 38              2,762,594

    NIST                 4               3                    5               12                  28,526

    ITA                  0               0                    1                1                        0
    PTO                  0               0                    1                1                        0

    Total              18               68                61                147           $3,217,923

Source: OIG

a
  Material findings are those with questioned costs greater than or equal to $10,000 and/or significant

nonfinancial findings.

b
  Nonresolution findings are those with questioned costs less than $10,000 or administrative findings.

c
  Cross-cutting findings may affect more than one program; they are procedural or internal control findings

that are disclosed on the noncognizant audit reports. 

d
  Questioned costs are subject to change during the audit resolution/appeal process.



The bureau programs with the most material findings, as shown in table 3, were the EDA
Revolving Loan Fund (RLF), with seven findings, and the NTIA Broadband Technology
Opportunities Program (BTOP), which had five findings. The program with the highest
percentage of reports with material, nonresolution, and/or cross-cutting findings was NIST’s
Construction Grant Program, with 100 percent; however, it should be noted that there was
only one report reviewed in that program.

The most common finding types across all Departmental programs included noncompliance
with:
         cost principles pertaining to allowable costs,
         reporting requirements (either deficient or late reports),
         cash management requirements,
         internal control policies concerning segregation of duties, and
         equipment and real property management requirements.




                                                          4
In addition, there were two noteworthy findings related to the “Special Tests and Provision”
associated with EDA’s RLF program:
        noncompliance with RLF capital utilization rates4 requirement and
        inadequate or missing documentation in loan files.



            Table 3. Material Findings in OIG-Reviewed Single Audit Reports,

                     July–December 2013, by Departmental Program

                                                        Number of
                                                        Awards in       Number of       Percentage
                                           CFDA          Reports        Awards with     of Awards        Material
Bureau              Program               Numbera       Revieweda        Findingsb     with Findingsb    Findings

           Investments for Public
EDA        Works and Economic              11.300           10                4             40               0
           Development Facilities
           Revolving Loan Fund
EDA                                        11.307           31               23             74               7
           Program

NOAA       Sea Grant Support               11.417           5                 1             20               2

           Regional Fishery
NOAA                                       11.441           5                 4             80               0
           Management Councils

NOAA       Habitat Conservation            11.463           7                 3             43               0
           Broadband Technology
NTIA                                       11.557           18                8             44               5
           Opportunities Program
           Measurement and
NIST       Engineering Research and        11.609           4                 3             75               1
           Standards
           Manufacturing Extension
NIST                                       11.611           9                 4             44               2
           Partnership
           NIST Construction Grant
NIST                                       11.618           1                 1            100               1
           Program

Source: OIG
a
  CFDA number = Catalog of Federal Domestic Assistance number
b
  An entity report may have more than one award per CFDA program listed on the SEFA. This table counts each
CFDA award line on the report SEFA. Counts may be larger than in tables 1 or 2 because a report may have
multiple awards for the same CFDA number.




4
 EDA generally requires recipients to have at least 75 percent of the RLF’s capital base loaned or committed at
any given time.


                                                        5
II. Analysis of Audits Submitted for Commercial Organizations

Commercial organizations that receive federal funds from the Department are subject to award
requirements, as stipulated in the award document.5 The Department of Commerce Financial
Assistance Standard Terms and Conditions (January 2013) provides guidance that an audit shall be
performed (unless otherwise specified in the terms and conditions of the award) when the
federal share amount awarded is $500,000 or more over the duration of the project period.
Additionally, it provides that an audit is required at least once every 2 years, depending on the
length of the award and the terms and conditions of the award. Some Departmental programs
have specific audit guidelines that are incorporated into the award. When the Department does
not have a program-specific audit guide available for the program, the auditor will follow the
requirements for a program-specific audit, as described in OMB Circular A-133, section 235.

The responsibilities of federal awarding bureaus in connection with for-profit audits, according
to the Department of Commerce Grants and Cooperative Agreements Manual, include:
    	 providing grants administration and programmatic guidance and support to recipients
       and
    	 reviewing the audit report and the recipient’s response and preparing the audit
       resolution proposal in accordance with DAO 213-5.
OIG’s responsibility for the review of for-profit audits is the same as for single audits (see
section 1). During the current review period, our analysis of audits submitted for commercial
and other organizations included the NIST Advanced Technology Program (ATP) awards, NIST
Technology Innovation Program (TIP) awards, NIST Measurement and Engineering Research
Standards awards (MERS), and NTIA BTOP awards.

ATP, TIP, and MERS awards range from 1 to 5 years, with audits due after the first, third, and
fifth years. ATP, which awarded funds from 1990 through 2004 and then in 2007, was replaced
by TIP, which awarded funds from 2009 through 2011. The last group of audit report
submissions was due in 2013 for ATP and will be due in 2015 for TIP. MERS has made various
awards since 1995 and continues to be an active award program.

BTOP awards span 3 years, with audits due after the first and third years. NTIA awarded BTOP
grants in 2010, and all first-year audits submitted have been reviewed. We have begun receiving
the third-year audit reports for review.

For commercial audits, both the grants officer and OIG receive a copy of the program-specific
audit reporting package, prepared in accordance with program guidelines (see table 4).




5
 15 C.F.R. §14.26(c) and (d).


                                                6
    Table 4. Audit Guidance, Threshold, and Requirements for Reporting Packages
                for Commercial Audit Submissions Reviewed by OIG


                                                    NTIA             NIST               NIST               NIST
                                                    BTOP             ATP                TIP                MERS

CFDA numbera                                        11.557          11.612             11.616              11.609
                                                                                                         Government
                                                                                     Government
                                                                   Program-                                 Auditing
                                                                                  Auditing Standards
                                                Program-         specific audit                         Standards and
                                                                                    and program-
Audit guidance                                specific audit     guidelines for                           program-
                                                                                    specific audit
                                              guidelines for         ATP                                specific audit
                                                                                   guidelines from
                                                  BTOP            cooperative                          guidelines from
                                                                                    OMB Circular
                                                                  agreements                            OMB Circular
                                                                                    A-133, §.235
                                                                                                         A-133 §.235
                                                                                                            Award
Audit threshold
                                                  >$100,000       All awards         All awards            amounts
                                                                                                         ≥$500,000
Required components of audit reporting package:
    Schedule of funds’ sources and
                                                                                                          
      project costs

    Independent auditor’s reportb                                                                         

    Internal control and compliance
                                                                                                          
      report
    Schedule of findings and questioned
                                                                                                          
      costs

    Schedule of prior audit findings                                                                      

    Corrective action plan                                                                                

    Management assertions                            N/A                               N/A                 N/A
                                                  If available
    Audited financial statements                  (audit not         N/A                N/A                 N/A
                                                   required)
Source: OIG, from program-specific audit guidelines for BTOP and ATP cooperative agreements, as well as
Government Auditing Standards and program-specific audit guidelines in OMB Circular A-133, section 235
N/A = not applicable
a
 CFDA number = Catalog of Federal Domestic Assistance number
b
 The independent auditor’s report is the opinion (or disclaimer) of whether the Schedule of Funds Sources and
Project Costs award is presented fairly in all material respects in conformity with generally accepted accounting
principles or another comprehensive basis of accounting.




                                                             7
We reviewed each report for compliance with the applicable reporting requirements (but not
for the quality of the underlying audits) and analyzed the results. Table 5 summarizes our
review of program-specific audits of awards made to commercial organizations by NIST and
NTIA. It shows that:
    	 a total of 39 percent of all reports reviewed contained at least one finding,
    	 both bureaus administered grants whose grantees had material findings,
    	 both bureaus had 10 nonresolution findings each (this number excludes significant
       procedural or internal control findings, which usually affect a specific program and
       whose resolution OIG does not monitor),
    	 a combined total of approximately $51,000 in questioned costs were identified among
       NIST and NTIA programs.

Two finding types included in the TIP program were (1) noncompliance with cost principles
related to allowable costs and (2) cost share matching requirements. The most frequent finding
type across the MERS program was noncompliance with reporting requirements, while the
BTOP program had noncompliance with cost principles related to allowable cost and issues
with reporting requirements.

                   Table 5. Analysis by Bureau for OIG-Reviewed Commercial

                              Audit Reports, July–December 2013a


                                              Reports    Percentage of                  Non-                 Questioned
                       CFDA       Reports       with     Reports with    Material    resolution    Total       Costsd
Bureau     Program    Number     Reviewed     Findings     Findings      Findingsb    Findingsc   Findings    (dollars)

 NIST       ATP       11.612        2            0             0            0            0           0         $    0
 NIST        TIP      11.616        8            3             38           1            2           3        12,030
 NIST      MERS       11.609        4            3             75           0            8           8         3,054
NTIA       BTOP       11.557       14            5             36           3          10           13        36,387
Total                              28           11             39           4           20          24       51,471

Source: OIG

a
  Each of these programs has recipients that could be subject to audit in accordance with OMB Circular A-133; if 

significant, results for those reviews appear in section 1. 

b
  Material findings are those with questioned costs greater than or equal to $10,000 and/or significant nonfinancial 

findings.

c
  Nonresolution findings are those with questioned costs less than $10,000 or administrative findings. 

d
  Questioned costs amounts are for federal share and are subject to change through the audit resolution/appeal

process.





                                                           8
Our nonfederal audit team, which will provide the bureaus with a detailed summary of the
findings, is ready to discuss these results in more detail as the Department proceeds with the
resolution of findings. If you have any questions, please contact me at (202) 482-4661 or Susan
Roy at (404) 730-2063.


cc:	   Lisa Casias, Director for Financial Management and Deputy Chief Financial Officer
       Barry E. Berkowitz, Director, Office of Acquisition Management
       Gordon Alston, Deputy Director for Financial Reporting and Internal Controls
       Julie Tao, Director, Office of Internal Controls, Office of Financial Management
       John Geisen, Director, Office of Acquisition Management, Grants Management Division
       Hari Sastry, Deputy Assistant Secretary for Resource Management
       Mark B. Daley, Deputy Director, Office of Acquisition Management
       Jon Alexander, Acting Chief Financial Officer, NOAA
       Andrew Baldus, Chief Financial Officer, EDA
       Len Bechtel, Director and Chief Financial Officer, NTIA
       George E. Jenkins, Chief Financial Officer, NIST
       Edith McCloud, Associate Director for Management and Chief Financial Officer, MBDA
       Anthony P. Scardino, Chief Financial Officer, USPTO




                                               9
